<html>
<title> - SHATTERING THE SILENCE: CONFRONTING THE PERILS OF FAMILY ELDER ABUSE</title>
<body><pre>[Senate Hearing 108-288]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-288
 
                        SHATTERING THE SILENCE:
              CONFRONTING THE PERILS OF FAMILY ELDER ABUSE

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            OCTOBER 20, 2003

                               __________

                           Serial No. 108-25

         Printed for the use of the Special Committee on Aging




                       US GOVERNMENT PRINTING OFFICE

91-381                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001




                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Alaska                  EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator John Breaux.........................     1
Prepared Joint Statement from the Hon. Rahm Emanuel, the Hon. 
  Peter T. King, and the Hon. Roy Blunt..........................     3
Prepared Statement of Senator Larry E. Craig.....................     4
Statement of Senator Elizabeth Dole..............................     5
Prepared Statement of Senator Susan Collins......................    10
Statement of Senator Herb Kohl...................................    10

                           Panel of Witnesses

Leanna Watts, accompanied by Daughter Diane Hamlin, Grayson, GA..     5
Joseph Lofy, Officer, New Berlin Police Department, New Berlin, 
  WI.............................................................    11
Robert M. Stein, Deputy District Attorney, San Diego County, San 
  Diego, CA......................................................    19
Kenneth Connor, Immediate Past President, Family Research 
  Council, and Attorney, Wilkes & McHugh, Leesburg, VA...........    31
Holly Ramsey-Klawsnik, Ph.D., Klawsnik & Klawsnik & Associates, 
  Canton, MA.....................................................    35
Joseph Snyder, on behalf of the National Association of Adult 
  Protective Services Administrators, Philadelphia, PA...........    43

                                 (iii)




  SHATTERING THE SILENCE: CONFRONTING THE PERILS OF FAMILY ELDER ABUSE

                              ----------                              --



                        MONDAY, OCTOBER 20. 2003

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:34 p.m, in room 
SD-628, Dirksen Senate Office Building, Hon. John Breaux, 
presiding.
    Present: Senators Breaux, Dole, Collins and Kohl.

            OPENING STATEMENT OF SENATOR JOHN BREAUX

    Senator Breaux. The committee will please come to order. 
Good afternoon. I would like to thank all of our witnesses for 
being with us and for the members that are here. I also would 
like to thank our committee Chairman, Senator Larry Craig, for 
his support throughout this investigation effort that we have 
embarked upon.
    I would also particularly like to thank the witnesses who 
are here with us this afternoon. Your testimony obviously will 
be of great importance to the Senate Special Committee on 
Aging.
    This committee in particular has conducted a number of 
hearings over the past several years on the subject of elder 
abuse. Our committee has examined elder abuse that has occurred 
in homes and institutions as well. We have also examined 
physical abuse, sexual abuse, as well as simple neglect of our 
Nation's elderly. Moreover, the committee has also examined 
various forms of financial abuse of older Americans as well.
    Today, we will examine the subject of family elder abuse, 
one of the most sinister forms of elder abuse that exists. We 
will be looking at the very people who violated a profound 
trust, a trust given by one elder to his or her own flesh and 
blood. Family elder abuse is difficult for any of us to fathom 
or to try and understand, but very sadly, it occurs.
    Forty years ago, none of us wanted to believe that anyone, 
much less a family member, could or would abuse a child. Now we 
realize that child abuse obviously does occur. As a result of 
attention to child abuse prevention at the State and Federal 
levels, numerous programs aimed at addressing this issue have 
been developed and also successfully implemented.
    I believe we are in the same situation today with regard 
our Nation's older Americans. It is almost impossible to 
believe that a family member would physically abuse or neglect 
a frail, older person, or take advantage of them financially. 
However, our witnesses this afternoon will dispel that belief.
    One of the difficulties in examining the issue of family 
elder abuse is the lack of any available data that defines its 
nature and also quantifies it. The only incidence and 
prevalence study on the topic of elder abuse suggests that 
family abuse is by far the largest category. The Adult 
Protective Services programs in the 50 States probably has the 
best data available addressing abuse within the family units. 
The 2000 report of the National Association of Adult Protective 
Services Administrators reflects that almost 62 percent of the 
perpetrators of elder abuse are from families, as you can see 
from the chart that we have prepared for the audience. This 
data was published in 2003.
    For the purposes of this hearing, we asked the Adult 
Protective Services Administration to prepare an interim report 
on data collected since the year 2000, but we were disappointed 
to learn that they have no plans to repeat this study at this 
time. This fact underscores the difficulty in obtaining elder 
abuse data. However, they did agree to report on some data 
collected in 32 States. Today, I am releasing that information, 
which continues to highlight the importance of finding creative 
solutions to this very serious national problem.
    Although there is little data on the subject, we do know 
from our committee's previous work that something like one out 
of every four Americans will be a victim of elder abuse, 
neglect, or exploitation at some point. We know that somewhere 
between 500,000 to 5 million seniors are abused every year, and 
further, we also know that the reported abuse is only really 
the tip of the iceberg, since 84 percent is the estimate of 
elder abuse believed to go completely unreported. Clearly the 
Congress and the Nation must find some innovative solutions 
that will protect our greatest generation from abuse.
    I happen to believe the Elder Justice Act, Senate bill S. 
333, that I introduced along with Senator Orrin Hatch, and 
which is now cosponsored by some 30 additional Senators, is 
just the type of jump start needed to begin the complex task of 
developing the research and the training and programs that can 
aid in combatting elder abuse.
    I am pleased that we now have a companion bill in the House 
of Representatives, H.R. 2490, which is a bipartisan bill 
sponsored by Representative Rahm Emanuel, Congressman Roy 
Blunt, Peter King, and approximately 60 additional Members of 
the House of Representatives.
    Also solidly behind the legislation are more than 190 
organizations working toward passage of the bill, through the 
Elder Justice Coalition. I think today's hearing will once 
again emphasize the need for this kind of legislation.
    Before introducing the witnesses, I would like to note that 
we received a statement for the record from Congressmen 
Emanuel, Blunt and King, and I would like to insert that in the 
record, and also thank them for their support.
    [The prepared statement of Senator Breaux follows along 
with prepared joint statement from the Honorable Rahm Emanuel, 
the Honorable Peter T. King, and the Honorable Roy Blunt and 
prepared statement from Senator Larry Craig:]

               Prepared Statement of Senator John Breaux

    Good morning. I would like to thank all of you for 
attending today's investigative hearing. I would also like to 
thank the Committee's Chairman, Senator Larry Craig, for his 
support throughout this investigation. Most importantly, I 
would like to thank the witnesses for being here today. Your 
testimony will assist the Committee greatly in building a 
strong record on the need for solutions to combat the growing 
problem of elder abuse, neglect and exploitation.
    The Committee has conducted a number of hearings over the 
years on the subject of elder abuse. The Committee has examined 
elder abuse in homes and institutions. The Committee has 
examined physical and sexual abuse, as well as neglect of the 
elderly. Moreover, the Committee has examined various forms of 
financial exploitation of the elderly.
    Today, we will examine the subject of family elder abuse--
one of the most sinister forms of elder abuse. We will be 
looking at the very people who violate a profound trust, a 
trust given by an elder to his or her flesh and blood. Family 
elder abuse is difficult for any of us to fathom, but sadly it 
occurs. Forty years ago, none of us wanted to believe that 
anyone, much less a family member, could or would abuse a 
child. Now, we realize that child abuse does occur. As a result 
of attention to child abuse prevention at the state and federal 
levels, numerous programs aimed at addressing this issue have 
been developed and successfully implemented. I believe we are 
in the same situation today with regard to our older Americans. 
It is almost impossible to believe that a family member would 
physically abuse or neglect a frail, older person, or take 
advantage of them financially. However, our witnesses this 
morning will dispel that belief.
    One of the difficulties in examining family elder abuse is 
the lack of available data that defines its nature and 
quantifies it. The only incidence and prevalence study on the 
topic of elder abuse suggests that family abuse is, by far, the 
largest category. Adult Protective Services programs in the 50 
states probably have the best available data addressing abuse 
within family units. The 2000 report of the National 
Association of Adult Protective Service Administrators reflects 
that 61.7% of the perpetrators of elder abuse are from 
families, as you can see from the chart we prepared. This APS 
data was published in 2003. For purposes of this hearing, I 
asked APS to prepare an interim report on data collected since 
the year 2000. I was disappointed to learn that there are no 
plans to repeat the APS study at this point. This fact 
underscores the difficulties in obtaining data elder abuse. 
However, APS did agree to report on some data collected in 32 
states. Today, I am releasing that APS information which 
continues to highlight the importance of finding creative 
solutions to preventing elder abuse.
    Although there is little data on the subject of family 
elder abuse, we know from the Committee's previous work that 
one out of four Americans will be a victim of elder abuse, 
neglect and exploitation at some point. We know that 500,000 to 
five million seniors are abused every year. Further, we know 
that reported abuse is only the ``tip of the iceberg,'' since 
84% of elder abuse is believed to go unreported. Clearly, the 
Congress and the Nation must find innovative solutions that 
will protect our greatest generation from abuse.
    I believe that the Elder Justice Act, S. 333, that I 
introduced along with Senator Orrin Hatch and which is co-
sponsored by 30 additional senators, is just the type of jump-
start needed to begin the complex task of developing research, 
training and programs that can aid in combating elder abuse. I 
am pleased that we have a companion bill in the House, H.R. 
2490, a bi-partisan bill sponsored by Representatives Rahm 
Emmanuel, Roy Blunt, Peter King and approximately 60 additional 
representatives. Also solidly behind the bill are more than 190 
organizations working toward passage of the bill through the 
Elder Justice Coalition. Today's hearing will, once again, 
emphasize the need for this kind of legislation to help us 
ensure the protection of all older Americans against elder 
abuse.
    Before introducing the witnesses, I would like to note that 
I received a statement for the record from the Representatives 
Emanuel, Blunt & King and would like to thank them for their 
support. I would also like to recognize other Senators for any 
opening remarks.
                              ----------                              


Prepared Joint Statement from the Honorable Rahm Emanuel, the Honorable 
               Peter T. King, and the Honorable Roy Blunt

    Chairman Craig and Ranking Member Breaux, we commend you 
for calling this important hearing to address the problem of 
family elder abuse in the United States. As sponsors of the 
``Elder Justice Act'' (H.R. 2490) in the U.S. House of 
Representatives, we are keenly aware that the growth in the 
senior population has coincided with a rise in family elder 
abuse. As people live longer and require more assistance in old 
age, the problem of family elder abuse is likely to intensify.
    We also recognize the painful choices that abused elderly 
must face once they accept that a beloved child, grandchild, or 
spouse is causing harm to them. We are hopeful that this 
hearing will shatter the silence and shed light on the fragile 
balance caseworkers strike as they strive to provide 
individuals with healthy options while respecting their right 
to autonomy. We believe this hearing will go a long way to 
raising awareness surrounding the tragedy of elder abuse to the 
same level as awareness of child abuse.
    Although most cases of family elder abuse go unreported, it 
is believed that the most frequent abusers of elderly victims 
are relatives who are usually adult children or spouses. We 
recognize that many victims of elder abuse and neglect often 
deny or downplay the mistreatment they are receiving. Some 
seniors do so out of fear of rejection and disruption of their 
lives; some out of pride, embarrassment or shame; some out of 
concern about their family's privacy and some out of concern 
that legal action might be taken against the alleged abuser. 
For the mentally infirm, many may not have the capacity to 
report abuse. In any event, it is clear that families can have 
undue influence over older Americans in a family setting. It is 
essential that we provide families with the necessary training, 
as well as options, to ensure that seniors are properly cared 
for and afforded a high quality of life.
    Family elder abuse includes more than physical 
mistreatment. It also includes psychological and emotional 
abuse and neglect. Yet, the most prevalent form of abuse may in 
fact be financial exploitation. We support a comprehensive 
public health and law enforcement approach to providing 
resources to support State and community efforts on the front 
lines dedicated to fighting elder abuse with scares resources 
and fragmented systems.
    Mr. Chairman, we look forward to working with you and the 
distinguished members of this Committee to respond to the 
perils of family elder abuse, and we once again commend you for 
convening this panel today.
                              ----------                              


               Prepared Statement of Senator Larry Craig

    I am pleased that Ranking member Senator Breaux has called 
for this important hearing today. As you know, crimes of abuse 
and exploitation perpetrated against the elderly are issues of 
high priority to me as Chairman of this committee.
    The abuse of our most vulnerable Senior citizens is a 
reprehensible crime and those who commit such offenses should 
be prosecuted to the full extent of the law. It is important to 
note, however, that there are various forms of abuse. As 
Chairman, I have convened several hearings on crimes which harm 
the elderly. We have explored abuses perpetrated by court-
appointed guardians; financial exploitation by Social Security 
representative payees; identity theft targeting seniors where 
life savings have been lost; and Elder Abuse arising in the 
homes and communities of our nation's Seniors.
    According to nationwide statistics, over 60 percent of 
those who commit Elder Abuse are family members of the victim. 
This shocking fact highlights the need to punish offenders as 
well as taking steps to prevent the abuse from occurring in the 
first place. The support of our nation's caregivers, who are 
largely family members, is an important way to prevent 
instances of abuse and neglect.
    We in Congress are considering a number of other important 
initiatives that protect senior citizens from those who prey 
upon them. We must continue to explore ways to coordinate 
federal and state efforts to resolve these devastating crimes.
    In addition, I continue to work with Senator Breaux on 
Elder Justice issues. He and I both agree that we must provide 
protections from abuse as well as preserve the dignity and 
freedoms of our most vulnerable citizens.
    I look forward to hearing today's testimony.

    Senator Breaux. I recognize any of my colleagues for any 
opening statements that they might have.
    Senator Dole.

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you, Mr. Chairman. I am grateful to all 
of those who are participating in this hearing today on family 
elder abuse.
    This topic is extremely disturbing to me. I was truly 
horrified to read of the abuse that is being committed against 
seniors, an estimated 500,000 a year, and that the majority of 
this abuse comes at the hands of a member of the victim's 
family.
    What does this say about the way we treat our mothers and 
our fathers when they are most in need? The pain that these 
seniors endure when they are most vulnerable and most in need 
is unfathomable. Fortunately, my State has temporary housing 
options once it's discovered that a senior is a victim of elder 
abuse. But key to assisting a victim, of course, is finding and 
investigating cases where seniors are being abused, 
financially, physically, sexually, mentally.
    Even more important, how do we stop the abuse from 
occurring in the first place? Our seniors suffering in silence, 
especially at the hands of family members, deserve our full 
attention. Those in our communities who are equipped to help 
must communicate with each other, assisting family members who 
are caretakers and mobilizing when an injustice is committed. 
We must act early and as often as necessary to protect our 
seniors.
    I certainly look forward to working with my colleagues to 
address these horrific abuses, and I want to thank you again, 
Mr. Chairman, and also thanks to the panel, for your courage in 
coming forth and your commitment to assisting those most in 
need.
    Thank you.
    Senator Breaux. Thank you, Senator Dole.
    If there are no other opening comments, we would like to 
welcome our panelists. We have this afternoon with us three 
individuals who are representing victims of physical and elder 
abuse, and also three experts which will share their research 
with us.
    Our first witness is Mrs. Leanna Watts, who is currently 
from Georgia, Grayson, GA, but used to be from Shreveport. She 
is accompanied by her daughter, Diane Hamlin. We thank both of 
you.
    I guess Mrs. Watts will be giving the testimony, so why 
don't you go ahead and tell us your story.

    STATEMENT OF LEANNA WATTS, GRAYSON, GA.; ACCOMPANIED BY 
                     DAUGHTER DIANE HAMLIN

    Mrs. Watts. I thank you for this opportunity, first of all. 
I just want to say that I can't begin to tell you all of the 
horrible things that I have experienced. But since I only have 
5 minutes, I have decided to tell you the things that are 
beneficial.
    I moved from Louisiana to Georgia to be near family. I 
lived with my daughter and her husband. I decided I wanted to 
maintain my independence, and during my search for independent 
living, I found the following: you cannot have any type of 
savings and obtain senior assistance housing.
    My son and his wife convinced me that Ohio had programs 
more geared towards seniors in my condition, mainly going to 
dialysis three times a week. They told me that they had secured 
me a senior apartment which was to be ready within 30 days of 
my arrival. There was no apartment. Their living room became my 
bedroom. Absolutely no privacy.
    When they found out about my life's savings of $10,000, 
things immediately changed. They drugged me and forced me to 
sign over power-of-attorney to my son and to become payee over 
my Social Security benefits also.
    They took all of my cash. They began using my credit card, 
forging my signature. They took all of my identification. They 
forbade me to answer the door or to go outside, only on my 
trips to and from dialysis. They suspended my telephone 
privileges and told me that all calls were being monitored and 
recorded.
    They kept me drugged for doctors appointments so that I 
could not answer questions or speak clearly. I had slurred 
speech and was slumped over my wheelchair. They constantly told 
me that dialysis patients do not live long and that I would 
soon die.
    I finally got help by telling the social worker at my 
dialysis unit what was happening to me. She then contacted 
Adult Protective Services, who contacted my daughter and they 
made arrangements to rescue me.
    We had to have a police escort to gather a few of my things 
at my son's apartment. We were unable to obtain any other 
personal belongings, such as my furniture or other clothing in 
storage, because my son would not disclose the location nor 
surrender the keys.
    Since returning to Georgia, life is getting back to normal. 
I am beginning to take walks again and I am able to go on 
shopping trips and able to push a shopping cart. I am no longer 
confined to a walker or wheelchair. I never would have imagined 
that something so tragic would happen to me.
    I want to say, last of all, that a word to the wise: pray 
and ask God for help, and when you get the answer, act on it.
    Thank you.
    [The prepared statement of Mrs. Watts follows:]
    [GRAPHIC] [TIFF OMITTED] 91381.001
    
    [GRAPHIC] [TIFF OMITTED] 91381.002
    
    [GRAPHIC] [TIFF OMITTED] 91381.003
    
    Senator Breaux. Thank you very much, Miss Watts. I think 
all of us are so glad to see you and doing well, doing much 
better than before. You certainly have done a very fine job in 
presenting your information to our committee here in Congress. 
So we are very appreciative of you being with us this 
afternoon.
    Mrs. Watts. Thank you.
    Senator Breaux. Senator Collins, did you have some opening 
comments you wanted to make?
    Senator Collins. Mr. Chairman, I will just submit it for 
the record. Thank you.
    [The prepared statement of Senator Collins follows:

              Prepared Statement of Senator Susan Collins

    Mr. Chairman, thank you for calling this afternoon's 
hearing to discuss elder abuse, a crime that threatens too many 
older Americans. Like all other forms of domestic violence, 
this abuse is hidden behind closed doors.
    Violence in the home has reached alarming proportions in 
the United States, and vulnerable seniors are among the 
victims. It is estimated that at least 500,000 of our nation's 
elderly are abused, neglected, or exploited each year. 
Moreover, the actual number of elder abuse and neglect cases 
may well be higher. For every incident reported to the 
authorities, another five go unreported.
    Abused and neglected seniors are possibly the most isolated 
victims of family violence. They are abused by the loved ones 
that they depend on the most to care for them--their spouses or 
adult children. Victims of elder abuse may be too physically or 
mentally disabled to seek help, or they may not want to report 
a member of their own family for mistreating them. As a 
consequence, many seniors are not able to get the help that 
they need, despite the well-intentioned efforts of Adult 
Protective Services and laws in many states, including Maine, 
that require mandatory reporting of suspected elder abuse and 
neglect cases.
    In my home state, it is estimated that there are 13,100 
seniors who suffer some measure of abuse and neglect. Only 
about one in five cases are referred to Adult Protective 
Services. Moreover, the Maine Department of Human Services 
reports that substantiated cases of elder abuse have risen to 
45 percent of all referrals and that the nature of the abuse is 
becoming more severe.
    Maine's problem is compounded by the fact that many of our 
elderly live in rural areas, making abuse less visible and 
possibly putting advocacy programs, social networks, and 
shelters out of reach. In addition, because Mainers pride 
themselves on self-sufficiency and value their privacy, they 
may even be less likely to report abuse or neglect or ask for 
help.
    Clearly, elder abuse is a complex problem that does not 
have a simple solution. I am pleased to be an original 
cosponsor of Senator Breaux's Elder Justice Act, which takes 
steps to address this under-reported, under-researched, and 
under-funded problem. The bill unites the social service, 
health, and law enforcement communities in analyzing elder 
abuse, improving the prevention and detection of elder 
victimization, and making sure that mistreated seniors are able 
to receive needed services.
    Mr. Chairman, I commend you for calling this important 
hearing. I look forward to hearing the testimony of the 
witnesses today and to working with you and other members of 
the Committee on this problem that will increase exponentially 
as the Baby Boom generation ages.

    Senator Breaux. Our next witness is from New Berlin, WI, 
somewhere up in Senator Kohl's territory. Senator Kohl, do you 
have any comments?

                 STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you, Senator Breaux.
    It is my pleasure today to introduce Officer Joseph K. Lofy 
as a distinguished member of our first panel. Wisconsin is 
lucky to have people like Officer Lofy working in law 
enforcement, and the Aging Committee is lucky to have the 
benefit of your expertise here today.
    Officer Lofy comes from a strong law enforcement family. 
His father is a retired police supervisor, and his mother and 
sister both work for the Milwaukee office of the FBI.
    Officer Lofy has continued that record of service. He 
served in the Village of Shorewood Police Department from 1990 
to 2002 as a patrol officer and investigator. He also currently 
serves as a patrol officer in the city of New Berlin Police 
Department.
    Throughout his service, Officer Lofy has attained a wealth 
of expertise. He has attended numerous training schools on 
child abuse and neglect, and he participated in the Wisconsin 
Department of Criminal Investigation's death investigation 
school. He has also distinguished himself as a Dare instructor, 
a fire investigator, a police composite artist, an evidence 
technician, a police photographer, and as part of the New 
Berlin Police Department Honor Guard.
    Over the years, Officer Lofy has successfully solved cases 
involving arson, bank robberies, child abuse, international 
kidnapping, serial burglars, and many other offices. Today his 
experience in the case of the death of Mary Graichen will help 
us shed light on a disturbing but very real tragedy of family 
elder abuse.
    Office Lofy, we welcome you here today. We thank you for 
your participation and we look forward to your testimony.
    Senator Breaux. Thank you, Senator Kohl.
    Before your testimony, Mr. Lofy, I think we have a short 
video we would like to show prior to your statement.
    [Video Presentation.]
    OK, Mr. Lofy.

STATEMENT OF OFFICER JOSEPH K. LOFY, CITY OF NEW BERLIN POLICE 
                   DEPARTMENT, NEW BERLIN, WI

    Mr. Lofy. Yes, sir. The first involvement the Village of 
Shorewood Police Department had in this case was in response to 
a request from the North Shore Fire Department. This is common 
in cases of individuals that are in need of being placed in 
protective custody for various reasons.
    The North Shore Fire Department was sent to the Graichen 
residence for a call of a woman with infected legs. The 
original callers were two caseworkers from the Milwaukee County 
Department of Aging. The caseworkers had been assigned to 
investigate a report that Edward Graichen was neglecting the 
needs of his mother.
    On Monday, January 10, 2000, at 1:24 p.m., the caseworkers 
arrived at the Graichen residence. They were able to get Edward 
Graichen to open the door and gain entry to the house. The 
conditions they encountered and the condition of Mary Graichen 
prompted the 911 call for an ambulance.
    The Graichen house, located at 4261 North Farwell Avenue in 
Shorewood, WI, is in a middle class to upper middle class 
neighborhood. The duplex and yard appear to be well kept on the 
outside. You can refer to figure 1 in the packet. Edward 
Graichen and his mother lived in the lower unit. The upper unit 
of the duplex was unoccupied at the time of this incident.
    The inside of the house, however, was a different and 
tragic story. All of the rooms were almost nearly impossible to 
enter, much less use in their designed function. Figures 2 
through 6 will illustrate this. Each room had items piled three 
to five feet deep covering the entire room.
    Something else not evident from the outside was the 
overpowering odor of urine, feces and decaying human body. 
Police and fire personnel had to use masks covering their 
mouths and noses, and also had to wear protective garments. 
Other fire personnel had to use Vick's vapor rub beneath their 
noses to reduce the effect of the stench so they could work.
    While medical personnel worked to remove the victim from an 
overstuffed armchair, exhaust fans were set up at the front 
door to blow in fresh air and vent the air and odors from the 
house out the windows of the residence. Officers who had been 
at the scene for some time, when they returned to the police 
station, the odor of the house was still lingering on their 
uniforms for several hours.
    The refrigerator in the house contained several bunches of 
bananas, a sub sandwich, several cans of Chunky soup, and some 
bags from the Hardee's fast food restaurant. There was no 
evidence found at the house that a proper meal had been 
prepared for some time. Inside of the freezer was empty ice 
cube trays and insulated drinking cups.
    The victim, Mary Graichen, was 88-years-old. It was 
reported by family members that Mary had once weighed over 200 
pounds. At the time she was discovered, she was under 100 
pounds in weight.
    Mary Graichen was discovered sitting in a chair in the 
living room of her house in her own waste. Mary Graichen was 
clothed and covered with blankets. She could barely lift her 
head up, as it hung down. Her dentures were sitting next to 
her, along with some food wrappers. Workers described Mary's 
hair as being one big snarly knot. They observed that Mary's 
eyes were open, but full of matter. She was filthy and smelled 
of rotting flesh. She had open wounds on her legs that were 
weeping fluid and blood. The workers were told that Mary 
Graichen had been fed soft foods, such as the bananas, and 
would only drink Diet Rite soda. She had been reported to be 
eating very little at the time she was discovered.
    The firefighters described Mary Graichen as having the 
appearance of ``melting'' into her chair. The firefighters 
aiding Mary Graichen again had to wear full firefighting 
garments and self-contained breathing apparatus to be able to 
stay close to her to render aid. When they lifted Mary from her 
chair, they discovered that her legs retained the pattern in 
the shape of the chair she had been seated in, and that the 
fabric beneath her had been disintegrating.
    Once at the hospital, doctors and staff discovered that 
Mary's sores had gone right down to the bone. Doctors stated 
that Mary was severely infected, septic, malnourished and 
dehydrated. Hospital staff said that her wounds were so severe 
that all they could do was to make Mary comfortable. You can 
refer to figures 7 and 8.
    Mary Graichen's son, Edward Graichen, was a 66-year-old 
male who worked part time at a fast food restaurant. When 
Edward Graichen was interviewed, he had told us he didn't want 
to get any help for his mother due to the fact that he had 
promised her she would not go into a nursing home. Edward 
Graichen told us that he had taken some classes at the 
Milwaukee Area Technical College to become a nurse's aid, and 
had been employed for some time in the past as a nurse's aid in 
a nursing home. He decided that he had taken proper care of his 
mother.
    How did this happen? The Graichen family was a family that 
had slipped through the cracks of society. The Village of 
Shorewood did not replace the village social worker upon her 
retirement. This was a missed opportunity to make personal 
contact, as she commonly did, and possibly prevent the 
situation from occurring. The Village of Shorewood health 
department made only telephone checks to attempt to follow up 
on the Graichen family.
    I have also assisted the North Shore Fire Department on 
several other incidents similar to this. I recall the case of 
an elderly woman who had open sores on her ankles that also 
contained maggots at the time, and also there was a disabled 
elderly gentleman whose walls of his apartment were covered 
with his own feces as he attempted to care for himself.
    The police agency that I am currently working for has a 
``find a way'' attitude about solving community problems. Our 
department employs two police social workers who make contact 
and follow-ups with citizens that may be on the verge of 
needing services that Waukasha County can provide them. They 
also assist with officers making the correct referrals to the 
correct county agencies.
    Thank you.
    [The prepared statement of Mr. Lofy follows:]
    [GRAPHIC] [TIFF OMITTED] 91381.004
    
    [GRAPHIC] [TIFF OMITTED] 91381.005
    
    [GRAPHIC] [TIFF OMITTED] 91381.006
    
    [GRAPHIC] [TIFF OMITTED] 91381.007
    
    [GRAPHIC] [TIFF OMITTED] 91381.008
    
    Senator Breaux. Just in conclusion, what was the outcome of 
this case with regard to the son?
    Mr. Lofy. The son was given 7 years probation and ordered 
not to conduct any care for any additional elderly people.
    Senator Breaux. We will have other questions later that we 
want to ask. It is an incredibly tragic story, and it's not the 
only one that's out there.
    Mr. Lofy. Correct.
    Senator Breaux. Next we would like to hear a statement from 
Mr. Robert Stein, from San Diego, the Deputy District Attorney. 
We welcome you, and thank you so much for traveling across the 
country to be with us.
    I understand you have a power point presentation and would 
like to present that.

 STATEMENT OF ROBERT M. STEIN, DEPUTY DISTRICT ATTORNEY, ELDER 
          ABUSE PROSECUTION UNIT, SAN DIEGO COUNTY, CA

    Mr. Stein. I have been a Deputy District Attorney for over 
14 years. I am currently a prosecutor in the Elder Abuse Unit. 
I prosecute cases of elder neglect.
    Unfortunately, these types of cases are not uncommon in San 
Diego County. Typically, the elderly victim is neglected by a 
family member, usually the elder's adult son or daughter. While 
working as the victim's caretaker, the perpetrator's real 
intent is clear: to live off the elderly victim.
    One such case is People v. Donnell Gilliam. I have Mrs. 
Gilliam's picture displayed on the first slide. For 13 years, 
Mr. Gilliam's only job was the sole caretaker for his mom. Mr. 
Gilliam neglected his mom, contributing to her death. It is an 
understatement to say that Mrs. Gilliam lived the last months 
of her life severely neglected by her son.
    Paramedics who first arrived at Mrs. Gilliam's home smelled 
an overpowering odor. A police officer described the odor--and 
these are his exact words during his testimony at trial--
``smelling like death.'' Mrs. Gilliam was lying in our own 
feces. Mrs. Gilliam was found unconscious. Mr. Gilliam did not 
clean his mom or bathe his mom.
    Paramedics at the hospital emergency room smelled an 
overpowering odor. The odor was so bad that hospital staff 
could not remain very long in the emergency room. They took 
turns coming in and out. Mrs. Gilliam was so dehydrated that 
her skin was peeling off. Pus was oozing out of a bed sore in 
her spine. I will show you a photo of the bed sore in a moment.
    Mrs. Gilliam's toe nails were so long that they did not 
look like toe nails. They looked like large growths, a large 
mass. I will show you all a picture of that in a moment.
    The emergency room doctor who treated Mrs. Gilliam 
diagnosed her to be suffering from severe dehydration which 
affected both her body and her mind, from severe malnutrition, 
a stage III decubitus ulcer, the bed sore at her spine, and a 
fever and infection which were caused by the bed sore.
    During the trial of Mr. Gilliam, the ER doctor opined that 
the Gilliam case was the worst case of neglect he had ever 
seen. Unfortunately, the Gilliam case is not the worst case of 
elder neglect that we have seen in the County of San Diego.
    This is a photograph of the stage III decubitus ulcer at 
Mrs. Gilliam's spine. A decubitus ulcer is caused when the 
victim remains lying in one place for a long period of time, 
cutting off circulation at the affected area. This is why the 
elderly victim must be regularly moved so that he or she is 
lying in different positions. Otherwise, the skin dies and eats 
away at the affected area.
    According to the emergency room doctor who treated Mrs. 
Gilliam, he said that it took over one month for this bed sore 
to develop, as it is shown here in the photograph.
    Finally, this is a photograph of Mrs. Gilliam's toe nails. 
According to the emergency room doctor, this picture is 
obviously evidence of severe neglect. The doctor could only 
testify that it took a long time for the nails to grow that 
long.
    Mr. Donnell Gilliam was charged with one count of felony 
elder neglect under California Penal Code section 368(b)(1). He 
requested a jury trial and we had a jury trial. At the 
conclusion of that jury trial, Mr. Gilliam was found guilty of 
elder neglect. He was granted probation for 3 years and was 
sentenced to 120 days in local custody and was not allowed to 
act as a caretaker.
    Thank you all very much for inviting me to appear before 
you today.
    [The prepared statement of Mr. Stein follows:]
    [GRAPHIC] [TIFF OMITTED] 91381.009
    
    [GRAPHIC] [TIFF OMITTED] 91381.010
    
    [GRAPHIC] [TIFF OMITTED] 91381.011
    
    [GRAPHIC] [TIFF OMITTED] 91381.012
    
    [GRAPHIC] [TIFF OMITTED] 91381.013
    
    [GRAPHIC] [TIFF OMITTED] 91381.014
    
    [GRAPHIC] [TIFF OMITTED] 91381.015
    
    [GRAPHIC] [TIFF OMITTED] 91381.016
    
    [GRAPHIC] [TIFF OMITTED] 91381.017
    
    [GRAPHIC] [TIFF OMITTED] 91381.018
    
    Senator Breaux. Thank you as well, Mr. Stein.
    The next witness will be Mr. Kenneth Connor, who is a 
partner with the law firm of Wilkes & McHugh, and former 
president of the Family Research Council.
    Mr. Connor, we are delighted to have you with us and look 
forward to your statement.

  STATEMENT OF KENNETH L. CONNOR, ESQ., LAW FIRM OF WILKES & 
 McHUGH, AND PAST IMMEDIATE PRESIDENT, FAMILY RESEARCH COUNCIL

    Mr. Connor. Thank you, Mr. Chairman, members of the 
committee. I appreciate your willingness to address the 
problems of neglect, abuse and financial exploitation of the 
elderly in our society. In my experience, these are problems of 
enormous magnitude but about which public law enforcement and 
law makers frequently are largely uninformed.
    I have been intimately involved with these problems for 
over 20 years. As a trial lawyer, I have represented many 
victims of elder abuse and neglect. As a member of Florida's 
Task Force on the Affordability and Availability of Long Term 
Care, I have wrestled first hand with the tensions that emerge 
from the need to hold caregivers fully accountable for 
wrongdoing toward the elderly, while at the same time 
preserving the affordability of their services.
    As President of the Family Research Council, I sought to 
increase public awareness of the plight of the elderly in our 
society and to drive home the proposition that those who claim 
to be ``pro life'' or ``pro family'' have a moral and social 
obligation to protect our elderly and to ensure that they are 
treated with dignity and respect.
    Theologian Francis Schaeffer and former Surgeon General C. 
Everett Koop rightly observed in their book, Whatever Happened 
to the Human Race: ``Cultures can be judged in many ways, but 
eventually, every nation in every age must be judged by this 
test: how did it treat people? Each generation, each wave of 
humanity, evaluates its predecessors on this basis. The final 
measure of mankind's humanity is how humanely people treat one 
another.'' Mr. Chairman, the judgment of history about how we 
treat our fellow man may well be impacted by the work of this 
committee.
    Even though we live in the most affluent country in the 
world today, and during the most affluent period of human 
history, and in a time in which our medical technology is 
second to none, thousands of America's elders suffer from abuse 
and neglect. As you have rightly noted, Mr. Chairman, your own 
staff reports that one out of every four Americans will be a 
victim of elder abuse, neglect or exploitation at some time in 
the future. Sadly, reports suggest, as you have indicated, that 
family members represent the largest category of perpetrators 
of abuse against the elderly, a sobering statistic, I might 
add, for the former president of a public policy, pro-family 
group.
    In truth, however, there is a dearth of data about these 
matters upon which you as policymakers can make informed 
judgments. Of one thing you can be confident, however: the 
magnitude and intensity of this problem will only increase in 
the future. Absent a seismic shift, all of the ingredients that 
exacerbate this problem are likely to get worse.
    Demographic trends are against us. Currently, there are 35 
million people who are age 65 or older, and that number is 
expected to double in the next 30 years. The over-85 age group 
is the fastest growing age group in America. Presently, we have 
a million and a half nursing home residents. That number will 
likely double by the year 2035.
    These demographic shifts will likely have a profoundly 
negative effect on the economics associated with old age. In 
1967, Medicare's cost was approximately $1 billion. but in the 
year 2000, its cost was approximately $300 billion. Medicaid 
spending in 1967 was approximately $1 billion, but in 2000, it 
was approximately $200 billion.
    When my generation, the ``baby boomers'' retire, estimated 
Medicaid costs in real dollars may well quadruple. By 2020 or 
2030, Medicaid could consume the entire budget of every State 
in the Union.
    The implications for Social Security are no less startling. 
In 1950, America had 16 workers for every retiree. Today, that 
ratio has slipped from 16:1 to 3:1. This data has intensely 
negative implications for the future of the elderly in a 
culture which has shifted from a sanctity of life to a quality 
of life ethic, and which increasingly calculates one's net 
worth in terms of cost-benefit ratios, quality of life 
assessments and functional capacity studies.
    Given those factors, and considering the increase in 
families which are disintegrating because of divorce--a two 
parent household is in a better position to care for its 
elderly than a single parent home--the pressures and attitudes 
that incline one toward abuse will intensify.
    Indeed, how long will it take for the youth of America, 
bending under the weight of ever-increasing costs for Medicare, 
Medicaid and Social Security, strained by the pressures of a 
single parent household, and sandwiched between caring for 
children and elderly parents who have the same needs as 
children, a generation raised on the disposable man ethic 
fostered by Roe v. Wade, conclude that the elderly are more of 
a burden than a benefit, useless eaters who are quite unwanted.
    In his book, ``Culture of Death: The Assault on Medical 
Ethics in America'', Wesley J. Smith states: ``Our culture is 
fast developing into one in which killing is beneficent, 
suicide is rational, natural death is undignified, and caring 
properly and compassionately for people who are elderly. . . 
disabled, despairing or dying, is a burden that wastes 
emotional and financial resources.'' If you doubt that, Mr. 
Chairman, please take a moment to reflect on the Terry Schiavo 
case that is producing a firestorm of controversy in Florida 
today.
    Mr. Chairman, my earnest prayer for you and the members of 
this committee, along with that of Mrs. Watts, is that you will 
be accorded the wisdom to know what is right in this situation 
and the courage to do it.
    Thank you, sir.
    [The prepared statement of Mr. Connor follows:]
    [GRAPHIC] [TIFF OMITTED] 91381.019
    
    [GRAPHIC] [TIFF OMITTED] 91381.020
    
    Senator Breaux. Thank you, Mr. Connor, for your 
presentation.
    Our next witness will be Ms. Holly Ramsey-Klawsnik. We're 
delighted to have you with us.

STATEMENT OF HOLLY RAMSEY-KLAWSNIK, PH.D. KLAWSNIK & KLAWSNIK & 
                     ASSOCIATES, CANTON, MA

    Dr. Ramsey-Klawsnik. Thank you.
    Seventy-three year old Clara T. is paralyzed and 
incontinent following a stroke. She spends her day in a 
hospital bed in her dining room. One day, her home health aide 
observed her crying and asking her husband to bring her 
medication. He told his wife to ``shut up.'' The crying 
escalated. Mr. T. forcibly held a pillow over her face, stating 
that when he tells her to shut up, she had better do it. He 
then roughly grabbed her breast.
    This case, like thousands each year, was reported and 
investigated. I evaluated Mrs. T. as a consultant for the 
Massachusetts Elder Protective Services program. She had been 
abused for 50 years. She explained, ``but now it's worse'' 
Prior to retirement, Mr. T's work provided some escape from the 
shoving, slapping, verbal and sexual assault. Before her 
stroke, she fetched the things she needed--water, medication, 
food. Now she only receives what her husband gives. She 
described humiliation when her husband changed her soiled 
clothing. He often took sexual advantage of these times.
    Thank you for inviting me to share what I have learned from 
clinical work and research with hundreds of victims like Mrs. 
T. I have worked with family violence for a quarter century, 
and the past 14 years of this work has been on elder abuse.
    Abuse in long-term care is intolerable. We must realize, 
however, that most seniors live in the community. Last year in 
Massachusetts, three times as many elder abuse cases were 
discovered in community as opposed to facility settings. Most 
community dwelling victims are abused by family members. In a 
study of 130 cases of suspected sexual abuse of elders residing 
in the community, I found that 77 percent of the offenders were 
family members.
    Like Mrs. T, many seniors victimized by family members have 
endured long-term violence. Others experience the onset of 
abuse after becoming disabled. For example, 86-year-old Mrs. J. 
moved in with her daughter and son-in-law to recover from a 
broken hip. Subsequently, her daughter died and her son-in-law 
became her caregiver. Mrs. J. disclosed to her visiting nurse 
that he took nude photos of her. He instructed her to open her 
legs and smile for the camera. He said the photos would prove 
that he had not abused her and that her daughter would want her 
to cooperate. He ``checked'' her genitals by inserting objects. 
He forced her to sign papers naming him as her life insurance 
beneficiary. This abuser earned his living as a home health 
aide.
    Much is required to end the suffering of people like Mrs. 
J. Suspicious cases must be recognized and reported. Reports 
must be competently and quickly investigated. Forensic experts 
must examine victims and document evidence of abuse. Many 
victims need medical and mental health care. Police officers 
and prosecutors need training to accommodate the special needs 
of older victims. Legal representation is needed to ensure 
protection of rights. Concrete needs range from shelter to 
food, medicine, transportation, assistive devices, and personal 
care.
    Are there adequate resources available for older victims? 
No. Unmet needs abound. Caring helpers scramble to secure 
scarce resources. Many victims do without.
    Across America, an army of trench workers struggle daily 
with unmet victim needs. This is the staff of our elder and 
adult protective services programs. I can personally attest 
that, from Florida to Oregon, Texas to New Hampshire, Hawaii to 
Massachusetts, they have insufficient resources to fulfill 
their mandate to protect the elderly, disabled and abused.
    The lack of funding is pervasive, the consequences are 
significant. Workers must venture into dangerous homes and 
neighborhoods to investigate reports; yet their systems 
typically cannot even afford to equip them with cell phones. 
Their salaries are low, their case loads are high. They are 
insufficiently trained to handle the complex problems 
confronting them unceasingly.
    The National Association of Adult Protective Services 
Administrators reports that half of the States have no 
protective services training budget. There are countless unmet 
needs among those on the front line in the inadequately 
financed war against elder abuse.
    The study of elder abuse is in its infancy. The unknown 
greatly exceeds the known. Who is most at risk? How can we 
prevent it? What are best practice methods for case 
investigation, intervention and prosecution?
    Research needs are extensive. For example, there has not 
been a national study of elder sexual abuse. How can we 
successfully intervene without scientific knowledge? Do victims 
deserve to have us show up, ready and willing to help, but 
lacking social science findings to inform our efforts? I think 
not.
    I am on the board of the National Committee for the 
Prevention of Elder Abuse. I have learned from my board 
colleagues, representing fields including medicine, criminal 
justice and aging services, of the critical need for inter-
disciplinary collaboration. Training is needed for the array of 
professionals who must work cooperatively when seniors are in 
danger.
    Elder abuse victims rely upon society to respond to their 
suffering with kindness, knowledge and resources. I applaud you 
for learning about this problem. I support efforts to fund a 
national response to elder abuse.
    The Elder Justice Act addresses many problems. With your 
support, this Act will result in needed changes, including the 
creation of safe havens for abused elders, funding for 
research, training of forensic experts, increased prosecution 
and training in protective services systems.
    I urge you to support the Elder Justice Act. I can promise 
you that, if passed, it will make a real difference in what we 
can offer victims.
    Thank you.
    [The prepared statement of Dr. Ramsey-Klawsnik follows:]
    [GRAPHIC] [TIFF OMITTED] 91381.021
    
    [GRAPHIC] [TIFF OMITTED] 91381.022
    
    [GRAPHIC] [TIFF OMITTED] 91381.023
    
    [GRAPHIC] [TIFF OMITTED] 91381.024
    
    [GRAPHIC] [TIFF OMITTED] 91381.025
    
    [GRAPHIC] [TIFF OMITTED] 91381.026
    
    Senator Breaux. Thank you so much. We appreciate your being 
with us.
    Our final witness will be Mr. Joseph Snyder of 
Pennsylvania, of Philadelphia, who is here on behalf of the 
National Association of Adult Protective Services 
Administration.
    Mr. Snyder.

 STATEMENT OF JOSEPH SNYDER, DIRECTOR, OLDER ADULT PROTECTIVE 
  SERVICE; APPEARING ON BEHALF OF THE NATIONAL ASSOCIATION OF 
            ADULT PROTECTIVE SERVICE ADMINISTRATORS

    Mr. Snyder. Thank you, Senator.
    Good afternoon. I am Joe Snyder, Director of Older Adult 
Protective Services at the Philadelphia Corporation for Aging 
in Philadelphia, PA. Today I am representing the National 
Association of Adult Protective Service Administrators, or 
NAAPSA.
    NAAPSA is the only national association that represents APS 
administrators and their victims throughout the country. NAAPSA 
is also a member of the National Center on Elder Abuse and 
partners with various entities that are interested in the 
welfare of the most at risk adults in our society. The mission 
of NAAPSA is to improve the quality and availability of 
services for disabled adults and elderly person who are abused, 
neglected, or exploited, and other vulnerable adults who are 
unable to protect their own interest.
    Adult Protective Services are those critical services 
provided to vulnerable adults age 18 and over, who have 
physical or mental disabilities which prevent them from 
protecting themselves from abuse, neglect and exploitation by 
themselves or others.
    Sadly, this abuse comes mostly from family members. In the 
NAAPSA study referred to earlier by Senator Breaux, it was 
found that 62 percent of all substantiated reports involved 
family members.
    Here are some case examples. An 85-year-old Pennsylvania 
woman was the victim of physical abuse for over 50 years by her 
husband. After repeated referrals to APS, she finally admitted 
the abuse, stating ``he never hits me in the face. He only hits 
me where people can't see it. He only hits me now when I can't 
walk.'' She finally made the choice to move into a nursing 
home, and at my worker's last visit, said to her, ``It's both 
good and bad being away from him.''
    An 84-year-old female from Tennessee lived alone with her 
77 cats and dogs. The client appeared to have not bathed or 
changed her clothes in years. She told APS that the animals 
were her only company. She knew that her clothes were rotting 
off, but her son, a local attorney who lived nearby, charged 
her $20 to wash her clothes. In order to fight off the dogs and 
cats, an APS worker remained with the client while she ate the 
meals that were delivered, so that she could finish the food. 
APS counselors were able to put in services to clean the home 
and her clothes. APS contacted her daughter from out of State, 
who came and took her home.
    A Wyoming man stands accused of intentionally abusing or 
neglecting his 91-year-old mother, after an investigation done 
by APS and the police. The woman was found sitting in a 
recliner, sitting in her own urine and feces, with multiple 
bruises all over her body. Her son, who had been unemployed for 
over 4 years, had been paying himself from her Social Security 
check as her caregiver. Investigators found two cases of beer 
and a half empty liter of whiskey when they arrived to do the 
investigation.
    These compelling stories are an everyday occurrence for APS 
staff and their victims. While research is scant in many areas, 
we do know certain things. We know that caregiver stress is not 
a valid cause or excuse for abuse, neglect, and exploitation. 
There are many caregivers under enormous stress who do not 
abuse or neglect. We know that the elements of power and 
control present and known to the folks who are in the domestic 
violence field are also prevalent in our cases. We also know 
that other characteristics of the perpetrators, like drug and 
alcohol addiction and mental illness, are prevalent in a lot of 
our casework.
    APS continues to need support to serve this forgotten 
population, however. According to information collected from 36 
States in 2002, the number of reports to APS programs jumped 14 
percent from 1999 to 2001, while at the same time an informal 
survey of APS administrators showed that a 30 percent reduction 
in staff had occurred to their programs.
    According to a 2000 survey of State APS programs conducted 
by NAAPSA, out of the 40 States that responded to the funding 
question, 47.5 percent of the States relied solely on the 
Social Services Block Grant, or SSBG, and an additional 20 
percent depended only on State and local funds.
    As part of welfare reform in 1996, the Congress and the 
Governors reduced SSBG funding from $2.8 billion to $2.38 
billion, with the promise of full restoration by fiscal year 
2003. The agreement was broken and SSBG funding was reduced to 
$1.7 billion, a reduction of more than one billion dollars from 
the 1996 level. This has resulted in a reduction of APS 
services in some States.
    It is imperative that SSBG be fully restored to the $2.8 
billion level. We hope that the Senate version of the CARE Act 
will prevail in conference and SSBG will be restored to the 
$2.8 billion level.
    The APS community and all who care about this at-risk 
population would like to thank Senators Breaux and Hatch and 
the other cosponsors for the introduction of the Elder Justice 
Act. This is the most important piece of Federal legislation in 
the history of the adult protective services movement.
    This bill provides a Federal home for adult protective 
services along with a consistent funding source. The Elder 
Justice Act provides support to State and community efforts to 
assure adequate resources to prevent, detect and reduce the 
significant social problem known as elder abuse. The Elder 
Justice Act will increase the knowledge base as well as support 
research and training activities dedicated to stopping this 
epidemic that will only increase in the coming years. The 
ability to provide a forensic capacity and increase 
prosecutions and collaborative efforts is essential if the 
field is to move forward.
    NAAPSA and APS administrators across the Nation urge you to 
help us combat this epidemic of family violence by supporting 
the Elder Justice Act and restoring full funding to the Social 
Services Block Grant. thank you for the opportunity to speak 
today.
    [The prepared statement of Mr. Snyder follows:]

    [GRAPHIC] [TIFF OMITTED] 91381.027
    
    [GRAPHIC] [TIFF OMITTED] 91381.028
    
    [GRAPHIC] [TIFF OMITTED] 91381.029
    
    Senator Breaux. Thank you, Mr. Snyder. I thank all of the 
witnesses that have been with us.
    You know, these stories are so tragic and so horrible and 
so difficult to understand, you would almost believe that they 
were not true if they weren't so well documented. For most 
Americans, the concept of having these types of tragic events 
occur is truly unbelievable. To think they may be the 
responsibility of family members is even more inconceivable to 
so many of us. But, in fact, they do occur. As you said, Mr. 
Snyder, it's almost an everyday occurrence seen by people in 
the protective services. It's inconceivable.
    I want to first recognize Senator Kohl, who was here first, 
and then Senator Dole, for any questions you might have.
    Senator Kohl. Thank you, Senator Breaux.
    Mrs. Watts, we need to tell you how sorry we are that you 
had to endure such a terrible ordeal. Obviously, there is no 
excuse for what happened to you, and we are so glad you were 
finally able to get the help that you needed. It is so 
important that people like yourself come here and tell us your 
stories, and we hope that Congress will do more to make sure 
that we prevent further tragedies.
    Can you tell us, did your son and your daughter-in-law ever 
face any criminal charges as a result of what they did to you?
    Mrs. Watts. No, I did not. Oh, they did not?
    Senator Kohl. Did they face any criminal charges, your son 
and your daughter-in-law, did they face any criminal charges?
    Mrs. Watts. No, they didn't.
    Senator Kohl. What happened? They just got away?
    Mrs. Watts. Well, when I left, I was so glad to get away 
from there, I just--I haven't done a thing about it yet. I have 
been suffering so, trying to get over the things that they did 
to me--you know, they drugged me, and they was putting drugs in 
my food that I didn't know about. I found out about it. When I 
go to the doctor, they would think that I'm mentally ill 
because they would tell them that, to make them turn everything 
over to them. It seemed like I was just a crazy person.
    I was so drugged, I knew what was going on, but I just 
couldn't help myself, you know.
    Senator Kohl. OK.
    Mrs. Watts. I was just slumped over in my wheelchair and I 
couldn't answer.
    Senator Kohl. All right.
    Mrs. Watts. But I haven't pressed any criminal charges 
against them, as yet.
    Senator Kohl. Officer Lofy, you have recounted the tragic 
story of Mary Graichen and have shown the committee these 
terrible pictures of the abuse and neglect that she suffered at 
the hands of her son. Many of us in the room are probably 
wondering why Edward Graichen only received probation.
    Can you and District Attorney Stein help us understand the 
difficulty of getting harsh sentences for family members who 
abuse their elderly relatives?
    Mr. Lofy. In the Edward Graichen sentencing, he had no 
criminal history. There was no sign of outward violence toward 
society or individuals. Because the neglect was such a 
nonviolent kind of sinister way of doing it, that there were no 
other victims, they decided at his age probation would be more 
appropriate rather than sending a 66-year-old man, possibly 
sentencing him to death, by giving him a lengthy prison 
sentence.
    Senator Kohl. Mr. Stein.
    Mr. Stein. Thank you, sir.
    Those are basically the same reasons why Mr. Gilliam was 
granted probation. In fact, I was surprised that he received 
120 days custody. He was a man in his fifties, who had no 
criminal record, who I can best describe as the most apathetic 
individual that I have ever come into contact with. I mean, 
totally apathetic, which explains the neglect of his mother. So 
I would conclude that the judge decided he was not a danger to 
the community and, based on his age, that's why he got 
probation and got the time he did.
    Senator Kohl. I would like to ask the panel how important 
do you think the Elder Justice Act is in trying to deal with 
these particular problems, these terrible problems in our 
society. Mrs. Klawsnik, would you like to comment on that?
    Dr. Ramsey-Klawsnik. I believe, sir, that the Act would be 
of enormous benefit. One of the things that it would do is help 
to train police officers and prosecutors. When you have a 
victim, such as some of the victims we have heard about today, 
and some of the victims I have met in my work, they can be very 
challenging to interview. It can be very difficult for them to 
come into court and give testimony. You need special methods 
and you need specially trained people to investigate. These 
cases are very time-consuming.
    I believe the Elder Justice Act would help in many, many 
ways, training not only for the law enforcement officers and 
the prosecutors, but for the protective services workers who 
are going to go out there, usually first, before law 
enforcement. If they're properly funded, they can get there 
quicker, they can do a better investigation.
    We need to have cross-disciplinary training so the 
protective service workers and the police officers are working 
together, so we can get the cases to the prosecutors with 
evidence intact. The forensic experts right now are missing. We 
need doctors and nurses and mental health experts, trained in 
forensics, who know geriatrics, who know elder abuse. They can 
go out and assist in these investigations and assist in 
evidence collection, so that when we give it to someone such as 
Mr. Stein, he's got a case that he can take to court and win.
    Senator Kohl. Does anybody else want to comment on the 
piece of legislation that we're trying to get passed? Mr. 
Connor.
    Mr. Connor. Senator, I appreciate the opportunity.
    I think this Act is of critical importance, especially in 
terms of educating the public as to the magnitude and degree of 
this problem. The way we treat our elderly in this country, 
both in home settings and institutional settings, is really a 
scandal.
    I am not at all surprised by these sentences involving 
probation. I think they reflect, first of all, a lack of 
understanding about the problems of the elderly. Far too often, 
prosecutors and others are under the impression that just 
because somebody is old or in ill health, it's inevitable that 
they're going to experience these kinds of problems. They 
don't. Pressure sores can be avoided. Malnutrition and 
dehydration can be avoided. People should not be chemically 
restrained because their inconvenient.
    Further, and a major concern I have, is a broader societal 
notion that somehow the value of life diminishes with age. I 
think the imposition of probationary sentences in no small 
degree reflects poorly on the way in which our culture values 
the elderly and the infirm.
    Senator Kohl. Any comment, Mr. Snyder?
    Mr. Snyder. Yes. Thank you, Senator Kohl.
    As I said in my comment, I think it's the most important 
piece of Federal legislation in the adult protective service 
movement history, and to piggyback on what everyone else has 
said, it does provide us with the ability to do collaboration.
    We haven't even spoken of financial exploitation today and 
the ability of people to understand that. I was lucky enough to 
partner with Temple University and the Department of Aging to 
get a grant from the Administration on Aging, to provide a 
financial exploitation specialist in my department. The results 
were phenomenal. We were able to put together cases to hand to 
the police that resulted in forgiveness of debt, restitution 
and arrest.
    We were able to partner with Wachovia Corporation to start 
a project that, in the first 100 days, we have documented 
stopping over $1.4 million in assets from being exploited. That 
is one financial institution, 100 days.
    Imagine what we could do with more.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Breaux. Senator Dole, any questions?
    Senator Dole. Yes, thank you.
    I would like to ask Dr. Ramsey-Klawsnik, tell me a little 
bit more about the fact that often it is the man, the males, 
rather than the females, who are reported as elder abusers. A 
hearing we had with the committee earlier highlighted the 
different coping mechanisms that men and women develop over the 
years and use to manage stressful situations. For many women, 
it seemed that caring for a spouse or a child may not produce 
the same feelings of anger or distress.
    I'm curious if the frequent accounts of men committing 
family elder abuse relate to their ways of coping with 
stressful situations. How do we explain this?
    Dr. Ramsey-Klawsnik. Well, you're absolutely correct. Men 
in our society seem to engage in violence much more frequently 
than women when you look at who commits most of the crime.
    When you look at the domestic violence statistics, most of 
the domestic violence is perpetrated by men against women. Not 
all of it, and women certainly are capable of being violent.
    In terms of the relationship between stress and violence, 
stress didn't cause Mrs. J's son-in-law to produce pornography 
with her. That is not something a person does when they're 
stressed. We do know that caregiving is very stressful, and 
perhaps more stressful for the average male than female, since 
in our society females are more used to doing it. It is more in 
keeping with how we've been brought up oftentimes.
    However, we don't find that as a result of caregiver stress 
people engage in the kind of serious horrendous acts you've 
heard about today. Drugging your mother so that you can take 
her to the doctor and be proclaimed her money manager, for 
example, that's not a reaction to stress. When we do find 
caregiver stress involved in elder abuse and neglect, we are 
much more likely to find that it is an episodic kind of event 
as opposed to chronic.
    If you're finding chronic abuse and neglect, that's 
typically not the result of stress. If a person is normally 
competent to provide quality care and committed and motivated 
to provide quality care to a mother, father, grandparent, they 
may become stressed when they've lost sleep or they're working 
too hard, where they're the only one doing it and they may lash 
out and say or do something they know they shouldn't. Usually 
those people have the competence to later recognize that they 
said or did the wrong thing, to apologize and to take steps to 
correct it.
    When you find this chronic, severe, multifaceted abuse, the 
physical abuse, the sexual abuse, the financial exploitation, 
the profound neglect, there are other motivations and other 
factors at work. Some of that is personality characteristics, 
some of that is mental illness, some of that is substance 
abuse, some of that is greed. There are many factors.
    Senator Dole. What do each of you think is the next step in 
conducting research on the topic of family elder abuse? What is 
the most important next step in research?
    Could I get you to start first, and then I would like to 
hear what Mr. Connor and Mr. Stein say about that.
    Dr. Ramsey-Klawsnik. Sure. There are so many research 
needs, it's hard to answer your question in terms of what 
should come first. First and foremost, we don't know enough 
about how much abuse actually occurs. We know what statistics 
Adult Protection Services have collected. Bear in mind, that's 
not all the cases. Those are the cases that have been reported 
and investigated, and then opened. Three steps.
    The cases that didn't get reported we don't know about. The 
cases that got reported and didn't get opened, in some cases 
that's because there wasn't abuse, and in some cases that's 
because the abuse wasn't on the surface and people didn't have 
enough time to dig enough and it wasn't discovered.
    I think my starting point with research would be some work 
to really go out there and determine how often this is 
happening, who the abusers are, who the victims are, and more 
about the factors you are raising, which is motive and cause.
    Senator Dole. Mr. Connor.
    Mr. Connor. Senator Dole, one of the things that research 
benefits from, obviously, is having a data base from which to 
make judgments. My own assessment is that there is very likely 
a limited amount of information involved among families with 
respect to abuse, and there isn't much data on which to 
operate.
    But I can tell you from experience that our nursing homes 
and adult congregate living facilities are virtual treasure 
troves of data that could be reviewed and assessed by Federal 
investigators who are interested in protecting the elderly. All 
of us are shocked by the stories we have heard here today. 
Elderly people lying in their urine and feces, with bed sores 
to the bone, malnourished and dehydrated, chemically 
restrained, and yet that is the stuff of existence of many, 
many, many of our elderly in nursing homes today. These are 
people who are being cared for by trained caregivers who are 
being paid with Federal dollars, and yet whose patients and 
residents are winding up in exactly the same shape and worse 
than what you have heard today.
    I have long felt that this was a problem that government 
was too often willing to stick its head in the sand about, and 
was unwilling to confront. The institutional lobbies hold great 
sway in the American political process. The reality is, 
however, if we really are concerned about the sanctity of life, 
and we really do believe that these people are to be counted 
among the least among us, I believe we have an obligation to 
ferret out the data to identify the problem and to show zero 
tolerance, absolutely zero tolerance, for those who are willing 
to abuse or exploit or neglect these very vulnerable people.
    Senator Dole. You know, you're taking me back to my days on 
the Federal Trade Commission as you make some of these 
comments, because I was in charge of an investigation then of 
nursing homes. With the contracts we found that so often there 
were things in the fine print that were actually taking away 
all of the funds of the person who was being admitted to the 
nursing home. There were just unfair practices.
    Mr. Connor. Indeed. I couldn't believe, frankly--and I 
don't remember the name of the fellow who was brought in 
initially to head up the Center for Medicare and Medicaid 
Services at the beginning of this administration. He indicated 
that he thought it was a nutty idea that the Federal Government 
would conduct annual inspections of nursing homes. That's the 
nuttiest statement I have ever heard from somebody who is 
charged with the responsibility of protecting the frail 
elderly.
    The reality of it is that people in this business, and 
private individuals as well, respond to both ``carrots'' and 
``sticks''. I think it's important for the Government to be 
prepared to apply the stick where it needs to be applied and 
when it needs to be applied.
    Senator Dole. Mr. Stein, would you add anything else, or 
any of you on the panel?
    Mr. Stein. Yes, thank you.
    I would concur with Dr. Ramsey-Klawsnik. I think the cases 
that we prosecute, the cases that you heard about today, 
represent just the tip of the iceberg about what is really 
going on out there. Typically, what we find is that, believe it 
or not, the elderly victim often defends the abuser. They 
recant and ask not to prosecute. They downplay what happens, 
and sometimes they go into court and they just absolutely 
recant and deny it happened. So think there's a lot more abuse 
going on out there, and that's where I think research would 
help.
    Senator Dole. Any other comments?
    Well, I want to thank all of you for your testimony today 
and for the tremendous work that you're doing, which is very, 
very difficult work. With a mother who is currently 102-years-
old, I have a strong interest in protecting these seniors.
    Thank you very much.
    Senator Breaux. Thank you, Senator Dole.
    I would just conclude by saying we've heard these witness 
panels before, and there is a great deal of concern, 
appropriately so, in the United States as a nation on the 
question of child abuse. The Federal Government and the State 
government has devoted a great deal of attention and a great 
deal of resources to the question of child abuse--and 
rightfully so. We have done the same thing with regard to 
spousal abuse, and rightfully so.
    But there is a real vacuum, and the vacuum is that we, as a 
Nation, do not give the same degree of intense research, help, 
coordination between the States and locals, when it comes to 
the question of elderly abuse. It is the fastest growing 
segment of our population. With the advent of the baby boom, 
there are 40 million Americans soon to be older Americans and 
moving into their golden years. This is an increasingly 
difficult national problem.
    That's why I was so pleased to hear the cases, and your 
testimony, Ms. Watts, and also from the experts. I think almost 
every one of you thought that the concept of an Elder Justice 
Act is something we should be moving toward. We have over 30 
cosponsors in the U.S. Senate of the legislation that Senator 
Hatch and I have cosponsored, and over 60 cosponsors in the 
House. The bill is certainly not perfect, but it is at least 
representative of the concept of the United States, as a 
nation, moving collectively toward addressing this huge 
national problem which, if we neglect giving it the attention 
it deserves, would only get much worse. So we will continue to 
push in that direction and say to all of you, thank you so much 
for helping make other people's lives hopefully a lot better in 
the future.
    With that, this committee hearing will be adjourned.
    [Whereupon, at 2:43 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
